                    Office of Inspector General
                   Corporation for National and
                            Community Service




     Semiannual Report
       to Congress
April 1, 2004 - September 30, 2004
   Fiscal Year 2004 Semiannual Report No. 2




  1201 New York Avenue, NW., Suite 830
          Washington, DC 20525
 Telephone (202) 606-5000, extension 390
        Facsimile (202) 565-2795
          Hotline (800) 452-8210
        Website: www.cncsig.gov
                                 Coroorution for    A




                                   October 29,2004



       I am pleased to submit to you the Office of Inspector General's Semiannual
Report to Congress for the period April 1 to September 30, 2004, and share with you the
findings of our investigations, audits and evaluations.

       During this reporting period, our investigators, auditors and evaluators helped
stem waste, fraud and abuse of taxpayer dollars by improving the operations and
oversight of the Corporation for National and Community Service (Corporation) and its
State commission partners. I am proud to inform you that our Audit Section completed
an ambitious, five-year effort to conduct pre-audit surveys of all State commissions.
These surveys furnished State commissions, which receive the vast majority of
Corporation funding and have direct oversight over thousands of local service programs,
with early warnings of management problems and valuable recommendations designed to
improve their operations.

       For the first time, our Semiannual Report to Congress includes a section
highlighting what the Office of Inspector General (OIG) believes to be the major
management challenges facing the Corporation. These challenges have been identified
and drawn from our investigative and audit experience, as well as reports issued by the
OIG, the Government Accountability Office, and the Office of Personnel Management.

       Also during this reporting period, the Audit Section completed its audit of the
American Association of State Service Commissions. We found serious, widespread
problems with management and financial controls, as well as several instances of using
Federal h n d s for lobbying activities. Our findings led the Corporation to suspend
funding to the organization and to revise several of its monitoring and internal control
procedures.

        The Investigations Section opened 21 cases, including several based on
information supplied by callers to our Fraud Hotline, and closed 12 actions. Our caseload
ranged from allegations of childcare fraud and program fund embezzlement to misuse of
Government charge cards and AmeriCorps members' education awards. Ongoing
investigations have identified approximately $1.6 million in potential recoveries that are
pending adjudication.




                    1201 New York Avenue, NW, Suite 830 + Washington, DC 20525
                       202-606-5000 ~rHotline 800-452-8210 + wwwcncsig gov             USA-
                                                                                       Freedom Corps
                                                                                                            -
                        Senior Corps t Amer~Corps+ Learn and Serve America              rhi P r t i ~ d c n t,c , I )   to < r i \ i u
       The Evaluation Section continued work on its comprehensive examination of the
AmeriCorps program. The evaluation of AmeriCorps includes identifying better methods
for developing Corporation performance measures, collecting meaningful performance
data, and using performance information to determine the effectiveness and impact of
AmeriCorps community service programs.

       I hope you find this report instructive as well as informative. This office strives to
provide findings and recommendations to the Corporation with the primary goal of
maximizing the effective expenditure of taxpayer dollars and expanding community
service opportunities for Americans.

                                         Sincerely,


                               2 . uyaae-
                                     J. Russell George
                                     Inspector General
                                                                                                    Table Of Contents

Executive Summary ......................................................................................................1
      Management Challenges ................................................................................................................... 1
      Audit Section ...................................................................................................................................... 1
      Investigations Section ....................................................................................................................... 1
      Evaluation Section ............................................................................................................................. 2
      Fiscal Year 2004 Performance Information ..................................................................................... 2

Management Challenges ..............................................................................................4
      Challenge 1: Grant Monitoring and Management ........................................................................... 5
      Challenge 2: Financial Management ................................................................................................ 6
      Challenge 3: Human Capital.............................................................................................................. 7
      Challenge 4: Information Security .................................................................................................... 8
      Challenge 5: Performance Measurement......................................................................................... 9

Audit Section ...............................................................................................................11
      Financial Management ..................................................................................................................... 12
      Grant Management and Oversight.................................................................................................. 12
      State Commission Pre-Audit Surveys............................................................................................ 13
      State Commission Full-Scope Audits ............................................................................................ 14
      Other Grant Audits ........................................................................................................................... 15
      Audit Resolution............................................................................................................................... 16
      Proposed Management Decisions.................................................................................................. 16
      Notices of Final Action..................................................................................................................... 16

Investigations Section ................................................................................................19
      Summary of Cases ........................................................................................................................... 20

Review of Legislation and Regulations .....................................................................27
      Corporation Rulemaking ................................................................................................................. 28

Statistical and Summary Tables.................................................................................29
      I.       Inspector General Act Reporting Requirements ................................................................ 30
      II.     Reports With Questioned Costs............................................................................................ 31
      III.    Reports With Recommendations That Funds Be Put To Better Use................................. 32
      IV.     Summary of Audits With Overdue Management Decisions ............................................... 33
      V.      Reports Described in Prior Semiannual Reports Without Final Action ............................ 34

Fiscal Year 2004 Performance Information ...............................................................35
      Audit Performance Information ...................................................................................................... 37
      Investigations Performance Information ....................................................................................... 39
 Executive Summary
Management Challenges
 In this semiannual report, the Office of Inspector General (OIG) has added a section that highlights
 what we believe to be the major management challenges facing the Corporation. The OIG is required
 to submit these management challenges to the Corporation under the Reports Consolidation Act of
 2000. These management challenges have been drawn from various reports issued by the Office of
 Inspector General, the Government Accountability Office, and the Office of Personnel Management.
 Further detail on the OIG reports that provide the basis for these management challenges can be
 found in the Audit Section and Investigations Section of this semiannual report.


Audit Section
 During this reporting period, the Office of Inspector General conducted audits and other work to
 improve the operations of the Corporation for National and Community Service. The Audit Section
 issued four audit reports and seven pre-audit survey reports, and provided information to Congress
 on the Corporation’s proposed policy to allow grantees to refill AmeriCorps positions if a member
 prematurely leaves the program.

 As part of the OIG’s responsibility to improve Corporation operations, we also audited the
 Corporation’s Gift Fund. The Gift Fund is an account created to accept donations from individuals
 and organizations to further national service. The audit found that the Gift Fund account is fairly
 stated and the Corporation’s policies on the Gift Fund comply with Federal regulations. However, we
 made some recommendations to improve administration of the Gift Fund.

 The OIG performs pre-audit surveys of State commissions. State commissions are the principal
 recipients of AmeriCorps funds. The pre-audit surveys provide a preliminary assessment of the
 commissions’ pre-award and grant selection procedures, fiscal administration, and monitoring of
 subgrantees. The information gathered allows the OIG to determine the timing and extent of audit
 work necessary at each State commission. The OIG issued pre-audit survey reports on the State
 commissions of Arizona, Arkansas, the District of Columbia, Montana, New York, North Dakota, and
 Utah.

 The OIG also performs full-scope audits of State commissions, which are thorough examinations of
 the commissions’ fiscal integrity. During this reporting period, the OIG issued full-scope audit reports
 on the South Carolina Commission on National and Community Service and the Rhode Island
 Service Alliance.

 The Office of Inspector General also performed an audit of the American Association of State Service
 Commissions, a Corporation grantee that provided training and technical assistance to State
 commissions. We also provided information to Congress on the Corporation’s proposal to allow
 limited refilling of vacated AmeriCorps positions.


Investigations Section
 The OIG Investigations Section continued to investigate allegations of fraud and abuse in Corporation
 programs and operations. During this reporting period, the Investigations Section received and
 processed 29 Hotline contacts, opened 21 investigative actions, and closed 12 investigative actions.
 Four matters were referred to the U.S. Department of Justice for prosecution, and five matters were
 referred to Corporation management for its action. Ongoing OIG investigations have identified $1.6
 million in potential recoveries of taxpayer dollars.


 April 1, 2004 – September 30, 2004                                                                    1
                                                                   Executive Summary

 As part of our ongoing effort to prevent fraud, waste and abuse of taxpayer dollars, the OIG
 Investigations Section made 26 fraud awareness presentations to program members, and to staff
 members of grantees, State commissions, and the Corporation. The presentations describe fraud,
 identify indicators of fraud, and discuss prevalent types of fraud. The Office of Inspector General
 investigative staff continued to visit AmeriCorps members at their service sites to discuss their
 community service experiences. The purpose of this initiative is twofold: it increases the visibility of
 the OIG, and it helps the OIG verify member information submitted to, and maintained by, the
 Corporation.


Evaluation Section
 During this reporting period, the Office of Inspector General Evaluation Section conducted extensive
 interviews as part of the OIG’s evaluation of the AmeriCorps program. Program analysts conducted
 interviews at Corporation headquarters, each of the Corporation’s five service centers, all five
 AmeriCorps*NCCC (National Civilian Community Corps) campuses, and many Corporation State
 offices, State commissions, and national direct grantees.       Interviews focused on the outreach,
 management, and monitoring of AmeriCorps members and projects, as well as the tools utilized to
 obtain feedback on potential areas for improvement by each program. The Evaluation Section
 anticipates issuing a draft report in 2004 that will feature key findings and recommendations for
 improving AmeriCorps.

 The Evaluation Section also launched preliminary initiatives to conduct an evaluation of the
 Corporation’s Senior Corps program. We anticipate the scope of the Senior Corps study to include
 procedures and tools used by the Corporation and its grantees to assess the need for program
 activities and an evaluation of Senior Corps’s overall performance in meeting those needs. This study
 will also examine Senior Corps’s procedures for collecting and reporting performance data, and for
 identifying and coordinating Corporation resources with other Federal, State, and local programs. It
 will also identify specific steps and management indicators for project selection, management, and
 monitoring. The Senior Corps evaluation will assess the program’s ability to accomplish its mission of
 engaging senior citizens to help their local communities.


Fiscal Year 2004 Performance Information
 The final section of this report summarizes the Office of Inspector General’s accomplishments and
 performance measures in support of OIG strategic goals.




 April 1, 2004 – September 30, 2004                                                                    2
                                                                  Executive Summary

About The Office Of Inspector General
In 1993, Congress created the Corporation for National and Community Service, along with this Office
of Inspector General, in the National and Community Service Trust Act (42 U.S.C. §§ 12501-681
(2004)). Like all Federal OIG operations, our office is independent of the agency it oversees. Led by a
presidential appointee, we audit, investigate, and evaluate the Corporation’s programs, including
AmeriCorps, Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn
and Serve America, and Senior Corps.

The Office of Inspector General’s team of professional investigators, evaluators, and auditors
examine the Corporation’s operations. We also examine State community service programs that
receive and distribute the majority of Corporation funds, as well as local recipients of Federal funds.

Based on the results of our audits, investigations, and reviews, the OIG recommends Corporation
policies to promote economy and efficiency. We also strive to prevent and detect fraud and abuse of
taxpayer dollars that have been invested in Corporation programs.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the final
six months of fiscal year 2004. The report is being transmitted to the Chief Executive Officer of the
Corporation, the Corporation’s Board of Directors, and Members of Congress. It will also be made
available to the public.

All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information Act.
Our efforts are often aided by information supplied via the OIG Hotline (800-452-8210). The Hotline
allows Corporation employees, grantees, program beneficiaries, and others to report concerns and
suspected fraud.

For more information on the OIG and its work, please visit our Internet website: www.cncsig.gov, or
telephone us at (202) 606-5000, extension 390.




April 1, 2004 – September 30, 2004                                                                    3
                                     Management Challenges
                  This section highlights what we believe to be the major
                  management challenges facing the Corporation. These
                  management challenges have been drawn from various
                  reports issued by the Office of Inspector General, the
                  Government Accountability Office, and the Office of
                  Personnel Management.




April 1, 2004 – September 30, 2004                                      4
                                                                Management Challenges

Challenge 1: Grant Monitoring and Management
 The Corporation awards nearly $700 million annually in grants to State commissions, nonprofits,
 community-based organizations, schools, and other civic organizations. The grants support the
 Corporation’s mission of providing opportunities to Americans of all ages to engage in service that
 addresses the nation’s educational, public safety, environmental, and other human needs. Monitoring
 such an extensive, nationwide grant-making operation efficiently and effectively presents a major
 challenge to the Corporation.

 Since the Corporation spends the majority of its appropriated funds on grants, it is critical that the
 Corporation monitor grant activity closely to ensure that grantees are complying with applicable
 Federal laws and regulations related to the administration of grant awards. The Corporation’s
 flagship program, AmeriCorps, is the largest recipient of the Corporation’s appropriated funds. Three-
 quarters of AmeriCorps monies are awarded to State commissions, which, in turn, select and fund
 subgrantees that execute the programs. The Corporation is required to monitor these State
 commissions to ensure compliance with grant agreements, and ensure that State commissions are
 performing their prescribed duties.

 As the main recipient of Corporation awards, the State commissions have been the focus of the vast
 majority of OIG audits. These State commission audits, as well as audits of other grantees, have
 identified several recurring problems that the Corporation needs to address, including:

     •    Grantees and subgrantees continue to fail to submit Financial Status Reports, progress
          reports, and member enrollment and exit forms in a timely manner.

     •    Grantees and subgrantees are unable to meet matching requirements or to provide
          documentary support for the reported matching contribution of non-Federal funds.

     •    State commission monitoring of subgrantees needs to be improved.

     •    The Corporation needs to emphasize to grantees the importance of conducting criminal
          background checks on potential members, and needs to clarify the grant provisions requiring
          background checks.

     •    Grantees and subgrantees are not maintaining sufficient timekeeping records for employees.

 To improve grant management, the Corporation needs to emphasize to all State commissions and
 other grantees the importance of complying with the requirements that accompany the receipt of
 Federal funds. The Corporation should work with the State commissions and grantees to ensure that
 each understands these requirements and can effectively implement them.

 The conclusion drawn from the audits of State commissions and other grantees that grantee
 monitoring needs improvement has been reinforced by the OIG’s annual audit of the Corporation’s
 financial statements. During the audit of the fiscal year 2003 financial statements, the OIG found for
 the third consecutive year1 that the Corporation’s monitoring of grantee activities was a reportable
 condition.2 Specifically:




 1
   The audit of the fiscal year 2004 financial statements is currently underway. It appears, however, that the
 Corporation’s grant monitoring, although improved from 2003, will again be identified as a reportable condition,
 making grant monitoring a reportable condition for four consecutive years.
 2
  A reportable condition is an issue coming to the auditor’s attention that, in the auditor’s judgment, should be
 communicated because it represents a significant deficiency in the design or operation of internal controls that
 could adversely affect the Corporation’s ability to meet its objectives.

 April 1, 2004 – September 30, 2004                                                                                 5
                                                          Management Challenges
     •   The Corporation did not conduct site visits of 15 of 52 State commissions within the
         prescribed three-year period. Of these 15, six State commissions were also identified as
         needing a site visit in the fiscal year 2002 financial statements audit.

     •   The Corporation did not conduct site visits of 53 of 1,400 Senior Corps grantees within the
         prescribed three-year period.

     •   Reports on site visit findings were not provided to 189 of 606 grantees within the prescribed
         20-day period following the visits.

     •   Progress reports, which describe program status and milestone achievements of grantees,
         were not always submitted to Corporation State offices as required.

 The OIG’s financial statements audit report contains four recommendations to improve the
 Corporation’s grantee monitoring:

     •   The Corporation should consider reevaluating its polices and procedures to implement a risk-
         based approach for conducting site visits to State commissions, and the Corporation should
         comply with those procedures.

     •   Corporation State offices should better track the results of site visits and maintain visit
         schedules for Senior Corps grantees.

     •   The Corporation should provide grantees with timely feedback from site visits. Corporation
         management should consider the timeliness of site visit report submissions when evaluating
         its staff.

     •   Corporation State offices should more closely monitor whether progress reports have been
         filed and follow up on delinquent reports.

 During the annual audit of the Corporation’s financial statements, the auditors also became aware of
 two issues related to grant monitoring that presented opportunities for the Corporation to strengthen
 internal controls and operational efficiency. First, the auditors found that the Corporation should
 ensure that reviews of the Federal audit clearinghouse database are conducted regularly to identify
 grantees with weaknesses and compliance problems prior to the award of a grant. Second, grant
 closeout procedures are not always followed, preventing grants from being closed out in a timely
 manner. We recommended that the Corporation develop a consistent method for identifying expired
 grants and performing a timely closeout of these grants.

 By implementing the recommendations on grant monitoring contained in the OIG reports noted
 above, the Corporation can enhance program efficiency and decrease the potential for fraud, waste,
 and abuse of Federal tax dollars.


Challenge 2: Financial Management
 For the fourth consecutive year, the Corporation received unqualified (i.e., clean) opinions on its
 financial statements: the Statement of Financial Position, the Statement of Operations and Changes
 in Net Position, and the Statement of Cash Flows. The Corporation reduced the number of reportable
 conditions in its financial statements audit from two to one. However, monitoring of grantee activities,
 as discussed in Challenge 1, remained a reportable condition.

 While the Corporation has made progress over the last year, several financial management areas
 continue to present challenges, including:




 April 1, 2004 – September 30, 2004                                                                    6
                                                             Management Challenges
 The National Service Trust

 The primary purpose of the National Service Trust is to fund education awards earned by AmeriCorps
 members who complete a designated term of service. The fiscal integrity of the Trust has improved
 substantially since 2002, when the Corporation violated the Anti-Deficiency Act by approving more
 AmeriCorps members than the Trust could support. To help prevent a recurrence, the OIG audited
 the Trust’s budgetary resources and obligations in fiscal year 2003, and our audit concluded that the
 Trust accounts are fairly stated. However, the management of the Trust still requires improvement.

 As identified in the OIG’s 2003 financial statements audit and in the Government Accountability
 Office’s report on the National Service Trust,3 discrepancies exist in the member data the Corporation
 uses for the Trust. Inaccuracies in member information could cause errors in the disbursement of
 education awards and inaccurate computation of the Trust’s liability. In addition, member exit
 information and education award payments are not always processed in a timely manner. These
 delays can result in a misstatement of the Trust’s liability.

 Government Travel Charge Cards

 The Corporation has issued travel charge cards to employees who are frequent travelers to pay for
 transportation, lodging, meals, and other reimbursable expenses while on official travel. The cards
 should only be used for authorized expenses related to official travel. In fiscal year 2001, the OIG
 initiated a review of Corporation employee use of the travel charge card. We identified more than 50
 employees suspected of misusing the cards for personal benefit. Since that review, the OIG has
 revisited this issue annually and has identified fewer employees who have misused the card. We
 credit the Corporation’s improved training of employees on the appropriate uses of the government
 travel charge card, but the potential for abuse remains a challenge requiring continued Corporation
 vigilance.

 Other Financial Management Areas

     •   The Gift Fund – The Corporation’s Gift Fund was created to receive donations from
         individuals and organizations to further national service. The OIG audited the Gift Fund and
         determined that it was fairly presented on the Corporation’s financial statements. Yet, the
         audit identified several instances of noncompliance with Corporation policies, and
         recommended that internal controls on Gift Fund expenditures be improved.

     •   Accounts Receivable and Debt Collection – Certain policies relating to accounts receivable
         and debt collection were either not documented or not followed. We recommended that the
         Corporation document policies related to accounts receivable and consistently apply policies
         related to debt collection.

     •   Vendor Payments – Payments to vendors were not always disbursed in a timely manner.
         Delays in payments to vendors were traced to the Corporation’s procedure, which requires
         several offices to verify contracts to ensure that goods and/or services have been provided
         before payments are made. We recommended that the Corporation place stricter controls on
         responsible offices, reemphasize the importance of timely payments, examine offices with
         delinquent payments, and resolve bottlenecks in the disbursement process.


Challenge 3: Human Capital
 The strategic management of human capital is one of the most important challenges facing the
 Corporation. To fulfill its mission, the Corporation must hire, train, and retain competent personnel.
 The Corporation operates under an Alternative Personnel System (APS) that is exempt from most of

 3
  Government Accountability Office, Better Internal Control and Revised Practices Would Improve the
 Management of AmeriCorps and the National Service Trust 12-15 (2004).

 April 1, 2004 – September 30, 2004                                                                   7
                                                          Management Challenges
 the provisions of Title 5 of the United States Code and other statutes that govern Federal employees.
 In 2003, the OIG issued a review that assessed the strengths and weaknesses of the APS, employee
 perceptions of the APS, the equal employment opportunity climate at the Corporation, and options for
 APS improvement.

 In general, the report found that the APS has benefited the Corporation but has not been
 administered in a manner that optimizes its value. The report also found that many APS policies and
 procedures lacked clarity and were not understood by managers and employees. The APS also
 lacked credibility because some employees believed it was rife with favoritism. Furthermore, the
 roles of offices responsible for human resource decisions were not clear, and there appeared to be no
 “honest broker” whom employees trusted to resolve their concerns in a fair and honest manner.
 There was also a strong feeling among African-American employees that they were not treated
 equitably with regard to grade levels, promotions, salary increases, and disciplinary actions.

 To address these issues, the report recommended that the Corporation take a number of actions,
 including:

     •   Improve communications to ensure that accurate information is conveyed to employees.

     •   Examine the APS to ensure that it is aligned with the Corporation’s strategic objectives.

     •   Create a Chief Human Capital Officer to oversee the APS and act as an “honest broker” in
         the organization.

     •   Clarify APS policies and the roles of offices involved in human resources decision-making.

     •   Conduct a detailed analysis of hiring, compensation, salary increases, promotions, awards,
         and disciplinary actions to identify areas where disparate treatment of employees may exist.

     •   Create an active diversity program to demonstrate the Corporation’s commitment to an
         inclusive culture.

     •   Provide APS training to executives, managers, and employees to dispel misconceptions
         about the system.

 The Office of Personnel Management also conducted a human capital assessment of the Corporation
 and identified many of these same challenges. Since these reports were issued, the Corporation has
 made a visible, concerted effort to make human capital management a top priority. The Corporation
 has hired a Chief Human Capital Officer who has improved employee communications by holding
 periodic meetings to discuss personnel issues and by issuing a biweekly human capital update to
 employees. A Diversity Advisory Council has been established to help the Corporation address areas
 related to diversity. In addition, the Corporation has developed a preliminary strategic human capital
 plan that attempts to align human capital policies and practices with the Corporation’s mission. While
 improvements have been made, the OIG recognizes the importance of this issue and plans to revisit
 the recommendations made in these reports to provide a complete assessment of the Corporation’s
 progress.


Challenge 4: Information Security
 The confidentiality and integrity of information systems are vital to the successful operation of the
 Corporation. Advancements in information technology have resulted in a number of benefits to the
 Corporation, such as information being processed more quickly and communicated almost
 instantaneously. However, these advancements have also increased the risk of fraud, inappropriate
 disclosure of sensitive data, and disruption of critical operations and services.



 April 1, 2004 – September 30, 2004                                                                   8
                                                           Management Challenges
 To address these concerns, Congress enacted the Federal Information Security Management Act of
 2002 (FISMA). The FISMA provides a comprehensive framework to ensure that information
 resources supporting Federal operations and assets employ effective security controls. The FISMA
 requires the OIG to perform an independent security evaluation of the Corporation annually.

 The OIG has performed the FISMA audit for fiscal year 2004. The auditors commended the
 Corporation for taking the following steps to enhance its security program and address issues
 identified in the 2003 FISMA report:

     •   Provided staff access to a comprehensive library of current policies and procedures via the
         Corporation’s Intranet.

     •   Initiated a proactive security awareness program.

     •   Conducted periodic network scans to identify vulnerabilities and take appropriate steps to
         mitigate risk.

     •   Installed an effective security incident reporting process that follows Federal policies.

     •   Completed effective configuration management of Corporation systems and assets.

 The Corporation’s noteworthy progress in 2004 is moderated, however, by one area that has shown
 little progress toward remediation. Our recent independent evaluation of the Corporation’s
 information security identified a significant deficiency in the Corporation’s annual testing and
 evaluation. The Corporation’s major applications and general support system have not undergone
 complete testing and evaluation in the past 12 months. Failure to conduct annual testing and
 evaluation permits new threats and vulnerabilities to go undetected for an extended period of time.
 Furthermore, the absence of annual testing and evaluation poses a high risk to the Corporation’s
 information security environment.

 We commend the Corporation on the steps it has taken to enhance information security, but until this
 issue is addressed, the Corporation’s information technology systems remain at risk.


Challenge 5: Performance Measurement
 Over the past decade, the Federal government has intensified its focus on measuring the
 performance of government agencies. In 1993, Congress passed the Government Performance and
 Results Act of 1993 (GPRA) to increase agency accountability and improve the quality and delivery of
 government services. The GPRA requires agencies to set program goals, measure program
 performance against those goals, and report on agency progress. To further these purposes, the
 Administration announced The President’s Management Agenda in 2001, which increased the focus
 on performance by formally integrating it with budget planning and reporting.

 The Corporation funds a wide variety of community service activities through an extensive network of
 grantees and subgrantees. Measuring the Corporation’s performance depends on accurately
 assessing the performance of this network of grantees and aligning this information with the
 Corporation's goals and measures. Accurate and complete measurements of grantee performance
 are critical for evaluating the economy and efficiency of the Corporation, and its impact in
 communities across the nation.

 Over the past few years, the Corporation has made advancements in three performance
 measurement areas. First, the Corporation has developed an Internet-based reporting system for
 AmeriCorps that allows grantees and subgrantees to collect performance information. Second, the
 Corporation has improved the quality of the performance data reported by grantees and subgrantees
 by providing training and technical assistance on using its Internet-based system. Finally, the


 April 1, 2004 – September 30, 2004                                                                  9
                                                       Management Challenges
Corporation’s fiscal year 2006 budget shows increased efforts in developing a performance-based
budget that is more closely aligned with its goals and strategic objectives.

Despite these advancements, the Corporation continues to face some significant challenges that
have been identified during the OIG’s ongoing evaluation of AmeriCorps. For example, Corporation
guidelines permit grantees and subgrantees to select their own performance measures and report on
their progress through a variety of procedures and systems. The lack of specific, standardized
performance measures impairs the ability of the Corporation to align grantee performance information
with the Corporation's strategic objectives in reports to the President and Congress. Corporation
guidance also requires grantees and subgrantees to only report on the top three activities they
perform, potentially causing some important accomplishments to be underreported. In addition, the
Corporation reviews performance information, but its computer systems are not structured to
adequately track monitoring efforts to validate the accuracy of performance information. Correcting
these deficiencies will enable Corporation management to more accurately measure the significant
results and impact achieved by its grantees and subgrantees.




April 1, 2004 – September 30, 2004                                                               10
                                                    Audit Section
                  The Office of Inspector General Audit Section is
                  responsible for reviewing the financial, administrative, and
                  programmatic operations of the Corporation for National
                  and Community Service.              The Audit Section’s
                  responsibilities include auditing the Corporation’s annual
                  financial statements, assessing the Corporation’s
                  management controls, reviewing the Corporation’s
                  operations, and auditing individual grants, contracts, and
                  cooperative agreements funded by the Corporation. All
                  OIG audit reports are issued to Corporation management
                  for its action or information.




April 1, 2004 – September 30, 2004                                          11
                                                                               Audit Section

Financial Management
 Audit of the Corporation for National and Community Service Gift Fund
 (Audit Report No. 04-13)

 We audited the Corporation Gift Fund, which was created to accept donations from individuals and
 organizations to further national service. In our opinion, the Gift Fund account balance was fairly
 presented on the Corporation’s financial statements, and the Corporation’s Gift Fund policies comply
 with applicable Federal laws and regulations. However, our audit also disclosed several instances of
 noncompliance with Corporation policies and procedures. We recommended corrective action, and
 the Corporation concurred with all of our recommendations.

 Comment on Corporation Refill Policy Safeguards (Audit Report No. 04-26)

 The Corporation plans to introduce a new policy allowing grantees to refill AmeriCorps positions if a
 member prematurely leaves the program. In response to a congressional request, we commented on
 the policy safeguards being built into the Corporation’s Web-Based Reporting System to protect the
 Corporation’s fiscal integrity. These safeguards are designed to provide real-time data on
 AmeriCorps member position refills to ensure that enrollment does not exceed authorized levels. The
 OIG is satisfied that the safeguards should provide real-time data that will accurately show enrollment
 levels.


Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other nonprofit organizations. Grantees are required to expend funds only for
 allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
 financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of
 grant awards in the areas of Federal cash management, human resources, and information
 technology.

 The Corporation awards grants and cooperative agreements to State commissions to assist national
 and community service programs in each State. The Corporation awards approximately three-
 quarters of its AmeriCorps*State and National funds to State commissions. In turn, the State
 commissions fund and are responsible for the oversight of the subgrantees that execute the
 programs. Working for these subgrantees, AmeriCorps members help their communities meet
 educational, human, environmental, and public safety needs.

 The Office of Inspector General Audit Section conducts audits of Corporation grantees to assess
 whether reported costs are allowable under Federal regulations and whether grantees are complying
 with the terms and conditions of their awards. Our reports on Corporation grants also include
 recommendations for correcting deficiencies. Typically, the recommendations call for grantees to
 reimburse questioned costs, establish and implement policies and procedures to prevent future
 instances of noncompliance, and improve internal controls. We also make recommendations for
 more effective Corporation oversight and improvements in Corporation grants management.

 During this reporting period, the OIG issued seven pre-audit survey reports, two State commission
 full-scope audits, and one audit of a training and technical assistance cooperative agreement. We
 are currently auditing the following State commissions: California, Colorado, Hawaii, Iowa, Louisiana,
 Nebraska, Nevada, Ohio, Vermont, and Wyoming. In addition, the following audits of other nonprofit
 organizations are ongoing: United Planning Organization, Educational Services District 112, Notre
 Dame Mission Volunteers Program, and the National Association of Community Health Care Centers.



 April 1, 2004 – September 30, 2004                                                                  12
                                                                              Audit Section
State Commission Pre-Audit Surveys
 Beginning in Fiscal Year 1999, the OIG initiated a series of pre-audit surveys intended to assess risk
 and to gather basic information on the State commissions’ operations and funding. The pre-audit
 surveys are designed to provide a preliminary assessment of the commissions’ pre-award and grant
 selection procedures, fiscal administration, and monitoring of subgrantees. The surveys are also
 intended to provide information on other audit coverage that may be required by the Single Audit Act.
 The information gathered allows the OIG to determine the timing and extent of additional audit work
 necessary at each State commission.

 For each pre-audit survey, the OIG issued a report communicating the results and making
 recommendations for improvement. The reports also recommended that the Corporation follow up
 with each State commission to determine that appropriate corrective actions are being undertaken to
 address the identified conditions.

 During this reporting period, the OIG issued pre-audit survey reports for seven State commissions.
 The results of these seven surveys are described below. This completes the OIG’s five-year initiative
 to conduct pre-audit surveys of all State commissions.

 Arizona Governor’s Commission on Service and Volunteerism (Audit Report No. 04-12)

 The Arizona Governor’s Commission was awarded Corporation AmeriCorps Formula, Program
 Development and Training, and Administrative grants totaling $5,777,235 for Program Years 2000-
 2001 and 2001-2002. The auditors noted the following: the Commission did not have documentation
 to prove that subgrantee monitoring information was used to select subgrantees for renewal; the site
 visit monitoring tool did not adequately document the Commission’s monitoring efforts; and controls
 were inadequate to ensure that AmeriCorps members were informed of prohibited activities. The
 auditors did not recommend that a full-scope audit be performed. They recommended that the
 Corporation follow up with the Commission to determine whether corrective actions have been
 implemented.

 Arkansas Service Commission (Audit Report No. 04-15)

 The Arkansas Service Commission was awarded Corporation AmeriCorps Formula, Program
 Development and Training, and Administrative grants totaling $4,728,590 for Program Years 2001-
 2002 and 2002-2003. During the survey program years, the auditors noted some areas for
 improvement and made recommendations accordingly. The auditors did not recommend that a full-
 scope audit be performed. They recommended performing limited procedures in the future to
 address the survey findings.

 Utah Commission on Volunteers (Audit Report No. 04-16)

 The Utah Commission was awarded AmeriCorps Formula, Program Development and Training, and
 Administrative grants totaling $4,493,378 for Program Years 2001-2002 and 2002-2003. The
 auditors found the following: internal controls over claimed matching costs under the Commission's
 administrative grant did not ensure that claimed costs were allowable and adequately supported; the
 Commission could not provide documentation that past performance and financial information of
 subgrantee applicants were considered in the selection process; the Commission did not fully and
 clearly document the subgrantee monitoring performed; and controls to ensure that AmeriCorps
 members were performing only allowable activities needed improvement. The auditors did not
 recommend that a full-scope audit be performed. They recommended that the Corporation follow up
 with the Commission to determine whether corrective actions have been implemented.

 District of Columbia Commission on National and Community Service (Audit Report No. 04-17)

 The District of Columbia Commission was awarded Corporation AmeriCorps Formula, Program
 Development and Training, Administrative, Disability, Citizen Corps, and Promise Fellows grants


 April 1, 2004 – September 30, 2004                                                                 13
                                                                              Audit Section
 totaling $2,301,817 for Program Years 2001-2002 and 2002-2003. During the pre-audit survey
 program years, the auditors noted that the Commission had established effective controls for
 administering Corporation grants. They did not recommend that a full-scope audit be performed.

 Montana Commission on Community Service (Audit Report No. 04-18)

 The Montana Commission was awarded Corporation AmeriCorps Formula, Program Development
 and Training, and Administrative grants totaling $2,350,068 for Program Years 2001-2002 and 2002-
 2003. The auditors found that the implementation of some of the Commission’s policies and
 procedures could be improved. The auditors did not recommend that a full-scope audit be performed.
 They recommended that the Corporation follow up with the Commission to determine whether
 corrective actions have been implemented.

 New York State Commission on National and Community Service (Audit Report No. 04-19)

 The New York State Commission was awarded Corporation AmeriCorps Formula, Program
 Development and Training, and Administrative grants totaling $45,907,802 for Program Years 2001-
 2002 and 2002-2003. During the survey program years, the auditors noted that the Commission:
 failed to formally or consistently consider past performance for applicants that had previously
 received grants; did not maintain adequate documentation to support its review of applicant and
 subgrantee OMB Circular A-133 reports; did not implement adequate procedures to ensure that
 subgrantees submitted Financial Status Reports (FSRs) in a timely manner; and did not periodically
 reconcile FSRs to cash drawdown balances. The Commission also failed to adequately monitor
 subgrantees, performed only limited programmatic monitoring, and conducted no fiscal monitoring of
 tested subgrantees. The auditors recommended performing a full-scope audit for Program Years
 2001-2002 and 2002-2003.

 North Dakota State Commission on National and Community Service (Audit Report No. 04-21)

 The North Dakota State Commission was awarded AmeriCorps Formula, AmeriCorps Competitive,
 Program Development and Training, and Administrative grants totaling $426,244 for the period
 October 1, 2002, through March 31, 2003. The auditors noted that the Commission: needed to
 improve its review and approval of the administrative match on Financial Status Reports; needed to
 better document its consideration of past performance or financial risk assessments during the
 subgrantee selection process; and should improve its documentation of communications with
 subgrantees and reviews of subgrantee audits. The auditors did not recommend that a full-scope
 audit be performed. They recommended that the Corporation follow up with the Commission to
 address the findings related to grant administration and subgrantee monitoring, and to determine
 whether corrective actions have been implemented.


State Commission Full-Scope Audits
 South Carolina Commission on National and Community Service (Audit Report No. 04-14)

 For the grants audited, the South Carolina Commission claimed costs of $5,059,908, of which the
 auditors questioned $25,592 as unallowable and $19,586 as unsupported. The amount questioned is
 less than one percent of the amount claimed. Costs questioned for allowability represent amounts for
 which documentation shows that recorded costs were expended in violation of regulations or specific
 award conditions. Costs questioned for support require additional documentation to substantiate that
 the costs were incurred and were allowable. The auditors concluded that the Consolidated Schedule
 of Award Costs presented fairly the costs claimed by the Commission, except for the questioned and
 unsupported costs identified in the report and the effects of any adjustments. The auditors also noted
 nine instances of noncompliance with provisions of applicable Federal requirements.

 The Commission’s response to the draft audit report stated that it has modified or implemented
 policies and procedures to correct the noncompliance issues. The response also included more


 April 1, 2004 – September 30, 2004                                                                 14
                                                                                Audit Section
 information about the questioned costs. The Corporation will review the Commission’s corrective
 actions as part of the audit resolution process.

 Rhode Island Service Alliance (Audit Report No. 04-22)

 The Rhode Island Service Alliance (RISA) claimed costs of $7,939,976, of which the auditors
 questioned $148,959 as unallowable. They also questioned $32,850 of education awards. Overall,
 the auditors questioned less than two percent of claimed costs. Costs questioned for allowability
 represent amounts for which documentation shows that recorded costs were expended in violation of
 regulations or specific award conditions, or costs that require an interpretation of allowability. The
 auditors also noted instances of noncompliance with provisions of Federal laws, regulations, or grant
 award provisions.

 The RISA disagreed with the audit report’s conclusions. It also objected to the auditors’ interpretation
 of grant provisions and whether RISA policies, procedures and practices met the requirements of the
 provisions. These comments and RISA’s corrective actions will be reviewed by the Corporation as
 part of the audit resolution process.


Other Grant Audits
 American Association of State Service Commissions (Audit Report No. 04-23)

 The Office of Inspector General audited grants awarded to the American Association of State Service
 Commissions, also known as America’s Service Commissions (ASC). Our audit showed that, after
 receiving $1.2 million of Federal grant funding over a three-and-a-half year period, ASC had not
 established and maintained the financial systems and management controls required to properly
 account for Federal funds. As a result, the OIG was unable to express an opinion on the costs
 incurred by ASC. While the audit noted that ASC conducted extensive training activities under the
 cooperative agreement, the OIG questioned $582,131 of $1,188,455, totaling 49 percent of
 expenditures incurred under the agreement due to poor accountability of Federal funds and
 noncompliance with Federal cost principles. The $582,131 of questioned costs included salary
 allocated to the cooperative agreement without required supporting documentation, extensive
 consulting costs, duplicative reporting of certain costs, and several instances of lobbying costs.

 In response to the audit, the Corporation suspended funding to ASC and will review the questioned
 costs along with ASC’s comments. The Corporation also revised several control procedures.
 Specifically, the Corporation intends to: (1) more closely monitor all first-time recipients of Federal
 grant funding; and (2) document its review of financial reports when determining whether recipients
 are required to undergo audits in accordance with Office of Management and Budget Circular A-133.
 To further strengthen related controls, the Corporation is recompeting its training and technical
 service cooperative agreements later this year, with accountability as a key selection factor. Future
 cooperative agreements will also incorporate more stringent budget plans that are directly linked to
 performance objectives and supported by detailed periodic expense reports.

 In its response to the draft audit report, ASC management acknowledged certain deficiencies in the
 implementation of its management control systems and advised that ASC’s Executive Director had
 recently resigned. Officials of ASC noted that management control systems had been established
 and codified as formal policy, and that ASC had established a detailed corrective action plan to
 address systemic deficiencies found during the audit. The management of ASC concurred with the
 recommended disallowance of $159,488 in grant costs and provided additional documentation and
 explanations regarding the remaining questioned costs. Management of ASC also proposed $55,137
 in additional expenses based on a reallocation of certain administrative costs. The costs questioned
 and internal control issues raised in the report will be resolved by the Corporation during the audit
 resolution process.




 April 1, 2004 – September 30, 2004                                                                   15
                                                                                Audit Section
Audit Resolution
 The Corporation's audit resolution process under Corporation Policy Number 101, Audit Resolution,
 consists of six steps that culminate in a Management Decision (MD) and completion of a Notice of
 Final Action on any corrective measures that management deems appropriate.

 Step 1: The OIG issues a draft report. Within 30 days, the OIG issues a final audit report after
 considering any comments received from the Corporation and the auditee.

 Step 2: Within six months of the OIG’s issuance of a final audit report, the Corporation issues a
 Proposed Management Decision (PMD), responding to the report's findings and recommendations.
 The PMD explains any corrective actions and provides a timetable for implementation. It also
 explains whether management disagrees with any of the report's findings and recommendations.

 Step 3: Within 30 days of receiving the PMD, the OIG may provide written comments and may
 initiate additional discussions with Corporation management if the OIG does not concur with the
 PMD.

 Step 4: After reviewing any OIG comments, the Chief Financial Officer (CFO) issues a Management
 Decision (MD).

 Step 5: When all corrective actions in the MD have been completed, the Corporation issues a Notice
 of Final Action. A Notice of Final Action must be issued within 12 months of the date the audit report
 was issued.

 Step 6: Audits for which Final Action was not completed within 12 months of issuance are included in
 the OIG’s semiannual report. The Corporation then provides comments on the status of these
 incomplete actions and forwards this information to Congress.


Proposed Management Decisions
 A proposed management decision is a Corporation report that responds to an OIG audit’s findings
 and recommendations, and outlines a plan for corrective action. During this reporting period, the
 Corporation notified the Office of Inspector General of the following proposed management decisions:

     •   Audit Report 03-04, Incurred-Cost Audit of Grants Awarded to the Wisconsin National and
         Community Service Board

     •   Audit Report 04-08, Pre-Audit Survey of the Oklahoma Community Service Commission

     •   Audit Report 04-09, Pre-Audit Survey of the Puerto Rico Commission on Community Service


Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed
 corrective actions. During this reporting period, the Office of Inspector General received the following
 Notices of Final Action:

     •   Audit Report 01-31, Report on the Review of the Corporation for National and Community
         Service National Direct Grant Application Review Process (GARP)

     •   Audit Report 02-17, Audit of Corporation for National and Community Service Grants
         Awarded to the New Jersey Commission on National and Community Service


 April 1, 2004 – September 30, 2004                                                                   16
                                                                         Audit Section
   •   Audit Report 02-21, Incurred-Cost Audit of Grants Awarded to the Alabama Governor’s Office
       on National and Community Service

   •   Audit Report 03-03, Incurred-Cost Audit of Grants Awarded to the Indiana Commission for
       Community Service and Volunteerism

   •   Audit Report 03-06, Incurred-Cost Audit of Grants Awarded to the Maine Commission for
       Community Service

   •   Audit Report 03-07, Incurred-Cost Audit of Grants Awarded to PENNSERVE: The Governor’s
       Office of Citizen Service

   •   Audit Report 03-08, Audit of Corporation for National and Community Service Grants
       Awarded to the Connecticut Commission on National & Community Service

   •   Audit Report 04-08, Pre-Audit Survey of the Oklahoma Community Service Commission




April 1, 2004 – September 30, 2004                                                            17
                                                                             Audit Section

                                     Audit Reports Issued
                              April 1, 2004 – September 30, 2004
 Report                                                                  Dollars          Dollars
            Issue Date                 Report Name
 Number                                                                 Questioned Unsupported
                                                                          (Dollars in thousands)
   04-12     04/01/04 Pre-Audit Survey of the Arizona Governor's            0                0
                      Commission On Service and Volunteerism

   04-13     08/31/04 Audit of the Corporation for National and             0             0
                      Community Service's Gift Fund

   04-14     06/18/04 Incurred-Cost Audit of Grants Awarded to              45           20
                      the South Carolina Commission on National
                      and Community Service

   04-15     08/09/04 Pre-Audit Survey of the Arkansas Service              0             0
                      Commission

   04-16     07/29/04 Pre-Audit Survey of the Utah Commission               0             0
                      on Volunteers

   04-17     08/09/04 Pre-Audit Survey of the District of Columbia          0             0
                      Commission on National and Community
                      Service

   04-18     08/23/04 Pre-Audit Survey of the Montana                       0             0
                      Commission on Community Service

   04-19     09/28/04 Pre-Audit Survey of the New York State                0             0
                      Commission on National and Community
                      Service
   04-21     09/28/04 Pre-Audit Survey of the North Dakota State            0             0
                      Commission on National and Community
                      Service

   04-22     09/23/04 Audit of Corporation for National and                149           88
                      Community Service Grants Awarded to the
                      Rhode Island Service Alliance

   04-23     09/20/04 Audit of Costs Incurred under the                    582           497
                      Corporation's Training and Technical
                      Assistance Cooperative Agreement with
                      America's Service Commissions

   04-26     09/30/04 Coments on        Corporation   Refill   Policy      N/A           N/A
                      Safeguards

                                         TOTAL                             $776         $605
  N/A: Not applicable




April 1, 2004 – September 30, 2004                                                             18
                                     Investigations Section
                  The Office of Inspector General Investigations Section is
                  responsible for the detection and investigation of fraud,
                  waste, and abuse in Corporation for National and
                  Community Service programs and operations. The
                  Investigations Section carries out these responsibilities by
                  investigating allegations of criminal activities involving the
                  Corporation’s employees, contractors, and grant
                  recipients. Criminal investigations are presented to the
                  U.S. Attorney or, in some cases, the local prosecutor for
                  criminal prosecution and monetary recovery. Some
                  investigative reports are referred to Corporation
                  management for its administrative action or information.




April 1, 2004 – September 30, 2004                                           19
                                                                Investigations Section

Summary of Cases
 At the beginning of this reporting period, 24 investigative actions were pending in the OIG
 Investigations Section. During this reporting period, OIG investigators opened 21 investigative actions
 and closed 12 investigations. Thirty-three investigative actions were pending at the end of the period.

 Cases Closed This Period

 Allegations of Embezzlement of Program Funds (OIG Report of Investigation 03-008)

 The Office of Inspector General conducted a joint investigation with local law enforcement into an
 allegation, reported by Corporation management, that a former National Direct AmeriCorps program
 director may have embezzled AmeriCorps program funds. The investigation determined that the
 former director had embezzled more than $31,000 in non-Federal funds belonging to the grantee.
 The former director was found guilty of Grand Theft, sentenced to three years’ supervised probation,
 required to make restitution of $37,512, assessed $491 in court fees, and required to perform 100
 hours of community service. Based on information developed by the OIG and presented to the
 Corporation, management debarred the former program director from participation in Federal
 contracts and grants for a period of 12 months.

 Childcare Fraud (OIG Report of Investigation 02-008)

 The Office of Inspector General investigated an allegation, reported by a grant recipient, that a former
 AmeriCorps member and her childcare providers submitted false AmeriCorps*Care applications.
 AmeriCorps*Care applications are submitted by AmeriCorps members to obtain childcare benefits.
 The applications for benefits were submitted knowing that the providers would not be furnishing the
 services as claimed. The investigation revealed evidence that the former member and the childcare
 providers submitted false monthly attendance reports. This allowed the childcare providers to receive
 thousands of dollars in AmeriCorps*Care subsidies, which they shared with the former member.

 Further investigation disclosed evidence that the former member received State childcare subsidies
 during the same period by conspiring with two different childcare providers to defraud the State
 system in the same manner. These childcare providers received a significant amount of Federal
 funds as part of their State childcare subsidies, which they also shared with the former member. All
 the childcare providers admitted to their involvement in the fraud and conspiracy. The former member
 admitted to some involvement.

 In addition, a review of the former member’s time sheets revealed that, although the former member
 was certified as eligible to receive an education award, only a small portion of her service hours were
 documented. Of these hours, 185 were on time sheets that bore the forged signature of the former
 member’s supervisor.

 The U.S. Department of Justice accepted this investigation and pursued criminal prosecution. The
 former member pled guilty in U.S. District Court and was sentenced to five years’ probation,
 restitution of $19,979.61, and a $100 court fee. Based on information developed by the OIG and
 presented to the Corporation, management debarred the former member from participating in Federal
 contracts and grants for a period of 24 months.

 Allegations of Improper Hiring Action (OIG Report of Investigation 03-024)

 The Office of Inspector General completed an investigation into allegations that a member of
 Corporation management was improperly hired. The investigation determined that the employee was
 noncompetitively hired for a position that required an open competition. The Counsel to the Office of
 Inspector General expressed the opinion that the hiring was improper and contrary to Federal
 regulations and procedures outlined in the Corporation Personnel System Handbook. This
 investigation was reported to Corporation management for its action. Corporation management

 April 1, 2004 – September 30, 2004                                                                  20
                                                                Investigations Section
informed the OIG that the Corporation’s Alternative Personnel System’s policies and procedures
would be reviewed and revised, and that any changes would be discussed with the Office of
Personnel Management.

Embezzlement of Program Funds (OIG Report of Investigation 03-026)

The Office of Inspector General investigated allegations, reported by a State commission, that a
former program employee and two accomplices had embezzled a large sum of money from the
program, a small portion of which were AmeriCorps funds. An investigation coordinated with local
law enforcement and the Federal Bureau of Investigation resulted in the convictions of the former
program employee and one of the accomplices. The other accomplice is a fugitive from justice.
Based on information developed by the OIG and presented to the Corporation, management
debarred the former program employee and an accomplice from participating in Federal contracts
and grants for a period of 36 months.

Improper Expenditures of Grant Funds (OIG Report of Investigation 04-021)

The Office of Inspector General investigated an allegation, reported via the OIG Hotline, that a State
grant recipient had misapplied grant funds under the Corporation’s Special Volunteer Program on
Homeland Security. The investigation disclosed evidence that a former grant administrator had
claimed expenditures under the grant that were unallowable, but found no evidence that the grant
recipient intended to defraud the U.S. Government. The OIG provided the results of the investigation
to the State commission, which recouped $4,818.74 in Federal program funds from the grant
recipient.

Personal Use of AmeriCorps Program Credit Card (OIG Report of Investigation 03-014)

The Office of Inspector General investigated an allegation, reported by a State commission, that a
former AmeriCorps program director used the AmeriCorps program’s credit card for personal use.
Evidence disclosed that the former director used the card to obtain cash advances and to purchase
personal items. The U.S. Department of Justice, citing the low dollar amount involved, declined to
accept this investigation for prosecution. Local law enforcement and the local prosecutor accepted
the case and charged the former director with felony theft. The former director pled guilty to one count
of felony theft and made restitution of $2,073.76. The former director received a 14-month sentence,
which was set aside pending successful completion of three years’ probation. Based on information
developed by the OIG and presented to the Corporation, management debarred the former program
director from participating in Federal contracts and grants for a period of 12 months.

Allegations of Improper Contract Award/Time and Attendance Fraud
(OIG Report of Investigation 04-006)

The Office of Inspector General completed an investigation into allegations that a Corporation
employee committed time and attendance fraud by preparing fraudulent time sheets and improperly
hiring a temporary employee. The investigation determined that the employee did not prepare
fraudulent time sheets, but did violate Corporation policy by hiring a temporary employee for a longer
period than allowed under Corporation policy. This information was provided to Corporation
management for appropriate action. Corporation management terminated the temporary employee
and counseled the permanent employee.

Improper Expenditures of Grant Funds (OIG Report of Investigation 04-005)

The Office of Inspector General investigated an allegation, reported by a State commission, that a
former AmeriCorps program director had obtained an AmeriCorps grant under false pretenses and
had misapplied grant funds. The investigation determined that the former director, an employee of an
educational institution, had used her position to obtain an Employer Identification Number from the
Internal Revenue Service (IRS). After obtaining the number, the director applied for and received an
AmeriCorps grant in violation of the educational institution’s policies. The investigation disclosed that,
although the director used the institution’s name without permission to obtain the grant, the program

April 1, 2004 – September 30, 2004                                                                    21
                                                              Investigations Section
initiated by the director benefited the local community. The OIG investigation identified unallowable
program costs claimed under the grant. The university terminated the employee and notified the IRS,
which revoked the Employer Identification Number. This information was provided to Corporation
management and the State commission for appropriate action.

Cases Open at End of Period
Theft of VISTA Checks (OIG Report of Investigation 04-017)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an unknown person intercepted, forged and cashed two AmeriCorps*VISTA stipend checks from
the U.S. Postal System. The investigation disclosed that a postal employee cashed both checks.
The OIG contacted the local U.S. Postal Inspection Service for assistance. Based on information
developed by the OIG, the U.S. Postal Inspection Service identified a postal employee as a suspect
and identified additional non-Corporation checks that had been diverted. The investigation is ongoing
and final results will be reported in a subsequent semiannual report.

Childcare Fraud (OIG Report of Investigation 04-019)

The Office of Inspector General is investigating a Hotline allegation, reported by a grantee, that a
former VISTA member submitted fraudulent childcare attendance reports for payment by claiming
that her daughter was providing childcare services. The investigation has disclosed evidence that the
member signed her daughter’s name to the attendance reports while her daughter was incarcerated,
so that the member would continue to receive childcare subsidies. The member admitted that she did
not use childcare services for the period she received the fraudulent payments. The U.S. Department
of Justice declined to prosecute this matter. The Office of Inspector General presented this
investigation to local authorities, who have accepted this investigation for criminal prosecution. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Conflict of Interest/Supplementation of Government Employee’s Salary
(OIG Report of Investigation 04-025)

The Office of Inspector General investigated allegations, reported by Corporation management, that a
Corporation employee may have engaged in unfair contract practices. The investigation found
insufficient evidence to support the allegation. However, during the investigation the OIG discovered
that the employee had received free meals from prohibited sources in connection with his official
government duties. The employee also received funds from a vendor to replace an item that the
employee claimed was stolen during a Corporation-sponsored event. The U.S. Department of Justice
declined to prosecute this matter in favor of administrative action. This matter was reported to the
U.S. Office of Government Ethics and information was provided to Corporation management for
appropriate action. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Personal Use of a Government Travel Charge Card / False Statements
(OIG Report of Investigation 04-029)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a Corporation employee misused her Government Travel Charge Card. The investigation
disclosed evidence that the employee misused her Travel Charge Card to obtain cash advances and
services that she was not authorized to receive. The employee also violated Corporation policy by
failing to make payments on her account, resulting in a delinquency. In addition, the employee
rendered two false statements under oath to OIG investigators in connection with the unauthorized
Travel Charge Card use. This matter has been referred to the Department of Justice for a
prosecutorial decision. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.




April 1, 2004 – September 30, 2004                                                                 22
                                                                Investigations Section
Fraudulent Receipt of Education Award (OIG Report of Investigation 04-030)

The Office of Inspector General is investigating allegations, reported by a grantee, that an
AmeriCorps member falsified her time sheets to obtain an education award. The investigation
disclosed evidence that the member altered her time sheets to reflect service hours she had not
performed. This allowed the member to earn an education award to which she was not entitled. The
program terminated the member prior to completion of her second term of service after discovering
that she had falsified additional time sheets. The Corporation also denied her a second education
award. The U.S. Department of Justice has accepted this investigation and is pursuing criminal
prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Fraudulent Receipt of Education Award (OIG Report of Investigation 04-035)

The Office of Inspector General is investigating allegations, reported by Corporation management,
that a former AmeriCorps member obtained an education award by using fraudulent documentation.
The investigation determined that the member prepared a fraudulent voucher that allowed her to use
her education award to pay off an automobile loan and receive the cash balance from her bank for
personal use. Additionally, the member attempted to use her second education award to make
payments on her delinquent mortgage. A Corporation employee questioned the authenticity of the
second award document, contacted the former member’s financial institution, and discovered that a
bank loan officer had certified the education award voucher so that the former member could pay her
delinquent mortgage payments with the funds. This matter has been referred to the Department of
Justice for a prosecutorial decision. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Fraudulent Receipt of Education Awards (OIG Report of Investigation 04-039)

The Office of Inspector General is investigating allegations, reported by a State commission, that a
program coordinator, with the approval of the program director, fraudulently enrolled staff employees
in the AmeriCorps program, falsified their service hours, and qualified them for education awards. The
investigation confirmed the allegations and disclosed that several of the employees had received and
used their education awards. Furthermore, the OIG determined that the program coordinator also
inflated AmeriCorps members’ service hours to allow them to earn their education awards. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Alleged Hatch Act Violation (OIG Report of Investigation 04-041)

The Office of Inspector General received an allegation, reported by a Corporation employee, that two
Corporation managers may have violated the Hatch Act (5 U.S.C. §§ 7321-26) when they forwarded
e-mails to other Corporation employees regarding a fundraising event in Washington, DC, to support
the reelection of a State senator. The Office of Inspector General coordinated this matter with the
Corporation’s Office of General Counsel, which reported that both employees sent retractions to their
e-mails. This matter was reported to the U.S. Office of Special Counsel for investigation. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

False Claims Violation (OIG Report of Investigation 01-095)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an AmeriCorps grant recipient used Corporation funds for purposes other than in support of the
grant. The recipient is alleged to have knowingly withdrawn Corporation grant funds in excess of
support needs in order to keep his program operating. The U.S. Department of Justice’s Affirmative
Civil Enforcement Coordinator accepted this investigation for prosecution as a civil false claims
matter. The investigation is ongoing and final results will be reported in a subsequent semiannual
report.




April 1, 2004 – September 30, 2004                                                                    23
                                                                 Investigations Section
Allegations of Fraud (OIG Report of Investigation 02-007)

The Office of Inspector General is investigating allegations, reported by a State commission, that a
program executive director and a chief financial officer used program funds for their personal use.
The investigation found evidence supporting this allegation. Initially, the Federal Bureau of
Investigation was the lead investigative agency but, due to other commitments, was unable to fully
pursue this matter. The U.S. Department of Justice has since declined to prosecute this matter in
favor of local prosecution. The local prosecutor accepted this matter for criminal prosecution. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 02-028)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an executive director of a grant recipient was diverting Corporation program funds to cover
personal expenditures and business expenses unrelated to program operations. The investigation
found evidence that the executive director and her spouse had diverted a significant amount of
Corporation funds. The U.S. Department of Justice has accepted this investigation and is pursuing
criminal prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Embezzlement of AmeriCorps Funds (OIG Report of Investigation 03-009)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a former program director of an AmeriCorps grant recipient embezzled AmeriCorps funds.
Evidence indicates that the former director embezzled a significant amount of program funds, a
portion of which were AmeriCorps grant funds. Evidence also indicates that the former director
utilized AmeriCorps members to perform services outside the scope of the grant at the former
director’s private businesses and organizations. AmeriCorps members also improperly received
credit toward their education awards for this service. The U.S. Department of Justice initially accepted
this investigation for criminal prosecution and then declined, based on the low dollar loss of the theft.
The Office of Inspector General presented this investigation to local authorities, who initially accepted
this investigation for criminal prosecution, then declined and returned it to the local U.S. Attorney’s
Office for possible civil adjudication. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Personal Use of AmeriCorps Program Credit Card and Embezzlement
(OIG Report of Investigation 03-015)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that a former associate director of an AmeriCorps program misused the program’s credit card.
Evidence indicates that the former director used the card for personal use and embezzled a
significant amount of program funds. The U.S. Department of Justice has accepted this investigation
and has indicted the former associate director for program fraud. The investigation is ongoing and
final results will be reported in a subsequent semiannual report.

VISTA Stipend Checks Theft (OIG Report of Investigation 03-016)

The Office of Inspector General is investigating an allegation, reported by Corporation management,
that an unknown person intercepted, forged, and cashed the AmeriCorps*VISTA stipend payment
checks of a former VISTA member over a six-month period. A suspect was identified and the
information was provided to the Federal Bureau of Investigation, which has assumed responsibility as
the lead investigative agency. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 03-018)

The Office of Inspector General is investigating an allegation, reported by a Corporation State office,
that a former bookkeeper at a program embezzled a significant amount of program funds, a small

April 1, 2004 – September 30, 2004                                                                      24
                                                               Investigations Section
portion of which were Foster Grandparent Program funds. Local prosecutors have accepted this
investigation for prosecution. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Fraudulent Receipt of VISTA Stipend (OIG Report of Investigation 03-040)

The Office of Inspector General is investigating an allegation, reported by a Corporation State office,
that an AmeriCorps*VISTA member left the program but continued to receive her stipend, allowing
her to collect a significant amount of Corporation funds to which she was not entitled. The
investigation found that the program failed to verify member attendance and also failed to provide
written documentation of member attendance in its biweekly reports. The U.S. Department of Justice
has accepted this investigation for criminal prosecution. The investigation is ongoing and final results
will be reported in a subsequent semiannual report.

Fraudulent Receipt of Education Award (OIG Report of Investigation 04-009)

The Office of Inspector General is investigating allegations, reported by Corporation management,
that a former AmeriCorps member obtained and misused his education award by using fraudulent
documentation. The investigation determined that the member prepared a fraudulent document that
allowed him to use his education award to purchase an automobile. The U.S. Department of Justice
has accepted this investigation and is pursuing criminal prosecution. The investigation is ongoing and
final results will be reported in a subsequent semiannual report.

Fraudulent AmeriCorps Application Fees (OIG Report of Investigation 04-015)

The Office of Inspector General is investigating allegations, reported by a State commission, that a
former program director charged prospective AmeriCorps members an “application fee” of $50-$100
to participate in the program. The former program director claimed that the collected fees were used
to cover the costs of background checks, training, and clothing. The OIG requested copies of the
program’s bank records to verify that the fees were used as claimed. The investigation is ongoing
and final results will be reported in a subsequent semiannual report.




April 1, 2004 – September 30, 2004                                                                  25
                                                              Investigations Section

                                     Summary Of Cases
  Opened and Closed
  Cases Open at Beginning of Reporting Period                                               24

  New Cases Opened                                                                          21

  Cases Closed this Period With Significant Findings                                        6

  Cases Closed this Period With No Significant Findings                                     6

  Total Cases Closed                                                                        12

  Cases Open at End of Reporting Period                                                     33

  Referred
  Cases Referred for Prosecution                                                            4

  Cases Accepted for Prosecution                                                            3*

  Cases Declined for Prosecution                                                            1

  Cases Pending Prosecutorial Review                                                        1

  Cases Pending Adjudication                                                                12

  Recommendations to Management
  Investigative Recommendations Referred to Management                                      5

  Investigative Recommendations Pending this Reporting Period                               1


  Investigative Recommendations Pending from Previous Reporting Periods                     0

  * This includes one case referred for prosecution during the previous reporting period.




April 1, 2004 – September 30, 2004                                                               26
                                 Review of Legislation and
                                              Regulations
                  Section 4(a) of the Inspector General Act directs the
                  Office of Inspector General to review and make
                  recommendations about existing and proposed legislation
                  and regulations relating to the Corporation’s programs and
                  operations. The Office of Inspector General reviews
                  legislation and regulations to determine their impact on
                  the economy and efficiency of the Corporation’s
                  administration of its programs and operations. It also
                  reviews and makes recommendations on the impact that
                  legislation and regulations may have on efforts to prevent
                  and detect fraud and abuse in Corporation programs and
                  operations. The Office of Inspector General draws on its
                  experience in audits and investigations as the basis for its
                  recommendations.




April 1, 2004 – September 30, 2004                                          27
                                Review Of Legislation And Regulations

Corporation Rulemaking
 On August 13, 2004, the Corporation published in the Federal Register a notice and invitation for
 public comment on proposed amendments to current program rules related to the AmeriCorps
 national service program. The Corporation also proposed additional rules concerning sustainability of
 AmeriCorps programs, selection criteria, performance measures and evaluation, tutor qualifications,
 and streamlining continuation grant applications and grant cycles. In March of this year, the
 Corporation invited public comment on these topic areas and received input from over 600 sources.
 The Corporation used this input in drafting the proposed rules. The additional period for public
 comment for the proposed rules closed on October 12, 2004, and it is anticipated that the Corporation
 will address the public comments and finalize the rules within the next reporting cycle.

 In the Office of Inspector General’s opinion, the proposed rules appear consistent with the National
 and Community Service Trust Act, and appear to have no adverse effect on the Corporation’s efforts
 to prevent fraud or abuse. Moreover, the proposed rules may have a beneficial impact on the
 economy and efficiency of the AmeriCorps program. They clarify the grant selection process,
 authorize AmeriCorps participants to recruit volunteers and raise funds from non-Federal sources, set
 a maximum childcare subsidy payment for members, and, through implementation of sustainability
 criteria for grant selection and renewal, attempt to maximize the impact of Federal funds by requiring
 grant recipients to obtain additional non-Federal matching funds.




 April 1, 2004 – September 30, 2004                                                                28
                                             Statistical and
                                           Summary Tables
                  The statistical and summary tables in this section are
                  submitted in compliance with the requirements
                  enumerated in the Inspector General Act.




April 1, 2004 – September 30, 2004                                    29
                                                                                            Tables

I.          Inspector General Act Reporting Requirements
     This table cross-references the reporting requirements prescribed by the Inspector General Act of
     1978, as amended, to the specific pages in the report where they are addressed.

         Section                               Requirement                                 Page
          4 (a)(2)     Review of legislation and regulations                                28

          5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                       administration of Corporation programs and operations

          5 (a)(2)     Recommendations with respect to significant problems, abuses      Throughout
                       and deficiencies found in the administration of Corporation
                       programs and operations

          5 (a)(3)     Prior significant recommendations on which corrective action         34
                       has not been completed

          5 (a)(4)     Matters referred to prosecutorial authorities                        26

          5 (a)(5)     Summary of instances where information was refused                None this
                                                                                          period

          5 (a)(6)     List of audit reports by subject matter showing dollar value of      18
                       questioned costs and recommendations that funds be put to
                       better use

          5 (a)(7)     Summary of significant reports                                    Throughout

          5 (a)(8)     Statistical table showing number of reports and dollar value of      31
                       questioned costs

          5 (a)(9)     Statistical table showing number of reports and dollar value of      32
                       recommendations that funds be put to better use

          5 (a)(10)    Summary of each audit issued before this reporting period for        33
                       which no management decision was made by end of reporting
                       period

          5 (a)(11)    Significant revised management decisions                          None this
                                                                                          period

          5 (a)(12)    Significant management decisions with which the Inspector         None this
                       General disagrees                                                  period




     April 1, 2004 – September 30, 2004                                                               30
                                                                                      Tables

II.         Reports With Questioned Costs



                                                                   Federal Costs

                   Report Category                    Number Questioned        Unsupported
                                                                   (Dollars in thousands)
      A. Reports for which no management decision       4          $1,920                   $1,834
         had been made by the commencement of the
         reporting period

      B. Reports issued during the reporting period     3            776                      604

      C. Total Reports (A + B)                          7           2,696                    2,438

      D. Reports for which a management decision        2
         was made during the reporting period

         I. Value of disallowed costs                                  99                      57

         II. Value of costs not disallowed                           513                      512

      E. Reports for which no management decision       5          $2,084                   $1,869
         had been made by the end of the reporting
         period (C - D)

      F. Reports with questioned costs for which no     2          $1,308                   $1,265
         management decision was made within six
         months of issuance




  April 1, 2004 – September 30, 2004                                                            31
                                                                                          Tables

III.         Reports With Recommendations That Funds
             Be Put To Better Use


                     Report Category                   Number*       Dollar Value*
                                                                 (Dollars in thousands)
       A. Reports for which no management decision        0                  $0
          had been made by the commencement of
          the reporting period

       B. Reports issued during the reporting period      0                  $0

       C. Reports for which a management decision
          was made during the reporting period

          i. Value of recommendations agreed to by        0                  $0
          management

          ii. Value of recommendations not agreed to      0                  $0
          by management

       D. Reports for which no management decision        0                  $0
          had been made by the end of the reporting
          period

       E. Reports for which no management decision        0                  $0
          was made within six months of issuance




   *The Audit Section predominately performed cost-incurred and compliance audits that resulted in
   questioned costs and noncompliance findings. These types of audits typically do not lead to
   recommendations that funds be put to better use.




  April 1, 2004 – September 30, 2004                                                                 32
                                                                                        Tables

IV.       Summary of Audits With Overdue Management Decisions



                                                    Federal    Mgmt.    Status as of
      Report                                        Dollars   Decision September 30,
      Number                 Title                 Questioned  Due*        2004
       03-05   Incurred-Cost Audit of Grants         $1,252,054       03/30/04       A Proposed
               Awarded to the Ohio Community                                        Management
               Service Council                                                     Decision has not
                                                                                   been provided to
                                                                                       the OIG

       04-05   Interim Report on the Assessment          N/A          05/03/04       A Proposed
               of the Implementation of New                                         Management
               Enrollment Procedures                                               Decision has not
                                                                                   been provided to
                                                                                       the OIG

       04-07   Pre-Audit Survey of the Louisiana       55,677         08/17/04       A Proposed
               Serve Commission                                                     Management
                                                                                   Decision has not
                                                                                   been provided to
                                                                                       the OIG
                              Total                  $1,307,731

   *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
  management decision must be made within six months of the issuance of the final audit report and
  corrective actions must be completed within one year.




 April 1, 2004 – September 30, 2004                                                                  33
                                                                                         Tables

V.        Reports Described in Prior Semiannual Reports
          Without Final Action



                                                                                   Final
     Report                                                        Date           Action
     Number                        Title                          Issued           Due*
      03-04   Incurred-Cost Audit of Grants Awarded to the        07/25/03       07/25/04
              Wisconsin National and Community Service
              Board

      03-05   Incurred-Cost Audit of Grants Awarded to the        09/30/03       09/30/04
              Ohio Community Service Council

      03-14   Audit of Costs Claimed by The Navajo Nation         03/28/03       03/28/04
              Under Grant No. 399W023-21, Foster
              Grandparent Program

      03-25   Independent Audit Report of Office of Inspector     09/18/03       09/18/04
              General Review of Corporation for National and
              Community Service Implementation of the
              Federal Information Security Management Act
              For Fiscal Year 2003



 *Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
 management decision must be made within six months of the issuance of the final report and
 corrective actions must be completed within one year.




 April 1, 2004 – September 30, 2004                                                             34
                                             Fiscal Year 2004
                                     Performance Information
                  The section summarizes the Office of Inspector General’s
                  accomplishments and performance measures in support
                  of OIG strategic goals.




April 1, 2004 – September 30, 2004                                      35
                                                          Performance Information
Strategic Goals
As part of the Office of Inspector General’s ongoing effort to carry out its mission, the OIG has
established the following goals:

 Strategic Goal 1
    Identify opportunities for increased economy and efficiency in agency operations, and assist
    management by identifying, recommending, and developing appropriate management reforms.

 Strategic Goal 2
    Protect the integrity of the Corporation’s programs, operations, and financial management by
    identifying and mitigating existing risks or emerging vulnerabilities that may result from changes in
    the Corporation’s operations, from changing legal and administrative requirements, or from
    changes in the environment in which the Corporation operates.

 Strategic Goal 3
    Carry out the intent of the Government Performance and Results Act (GPRA) by providing the
    Corporation with objective assessments of the integrity of the systems used to compile
    performance information and the reliability of this information, and focusing OIG activities more on
    management performance and programmatic outcomes.

 Strategic Goal 4
    Continuous improvement in the quality and delivery of OIG reports and work products.


On the following pages, the performance information is provided and linked with our strategic goals.




April 1, 2004 – September 30, 2004                                                                    36
                                             Audit Performance Information

           Quantitative Audit Performance Measures
                                                          FISCAL YEAR
                                                         2003     2004

Number of reports issued                                  19      23


Number of reports issued linked to improving              5        6
Corporation management (OIG Strategic Goal One)


Number of recommendations linked to improving             56      45
Corporation management (OIG Strategic Goal One)


Number of reports issued linked to protecting the         19      22
integrity of Corporation programs, operations, and
financial management (OIG Strategic Goal Two)


Number of recommendations linked to protecting the
integrity of Corporation programs, operations, and
financial management (OIG Strategic Goal Two)
                      to Corporation                      62      46
                      to Grantees                         78      93
                      to Contractors                       0       0


Number of reports issued linked to carrying out the       2        1
intent of GPRA (OIG Strategic Goal Three)


Number of recommendations linked to carrying out the      12      15
intent of GPRA (OIG Strategic Goal Three)


Total number of audit recommendations                    140      139


Percent of recommendations accepted by the Corporation   93%      99%




April 1, 2004 – September 30, 2004                                       37
                                             Audit Performance Information


                            Audit Performance Statistics*

                                                                           Fiscal Year
                                                                  2002        2003       2004

  Number of audit reports                                           28         19         23


  Number of testimonies                                             0          1          0


  Number of reports requested by Congress                           6          4          4


  Questioned costs (dollars in thousands)                        $23,369    $3,585       $836


  Value of recommendations that funds be put to                  $1,607      $119        $0**
  better use (dollars in thousands)


  Cost per audit hour
           OIG staff                                               $52        $53        $58
           Contracted services                                     $96        $85        $83


  Timeliness (average length of time to complete                215 days 202 days 151 days
  an audit)


*In accordance with Strategic Goal Four, which is to improve the quality and delivery of OIG
services, reports, and other work products, the OIG monitors the number of audit reports issued
annually and the time required to complete each audit.
**The Audit Section predominately performed cost-incurred and compliance audits that resulted
in questioned costs and noncompliance findings. These types of audits typically do not lead to
recommendations that funds be put to better use.




April 1, 2004 – September 30, 2004                                                                38
                                   Investigations Performance Information

                         Investigations Performance Information
               Fiscal Year                2000           2001          2002           2003           2004
    Investigative actions opened           51                  1        40             42             42
                                                         95

    Investigative actions resolved         47             95             40            30             38
    and closed

    Average monthly caseload               30             35             24            26             28

    Investigative matters resolved         37             29             37            42             59
    without opening a separate
    investigative action

    Referrals for prosecution              14             16             10             9              8

                           2            $308,939       $55,961      $1,206,057      $123,988        $36,952
    Investigative recoveries

                   3                        --            --             --                     4   $5,106
    Cost avoidance                                                                 $158,038

    Administrative or management            4             8              25                 5          8
                                                                                       23
    action taken


1
 Forty-five of the 95 investigative actions opened during fiscal 2001 were opened as a direct result of a
proactive OIG review of Corporation employees’ use of the Government Travel Charge Card. These 45
actions documented the investigation of suspected employee abuse of government travel charge cards,
namely using the cards for personal benefit in violation of Corporation policy, Federal regulations, and the
Standards of Ethical Conduct for Employees of the Executive Branch .
2
  Includes money received by the Corporation or other government agencies as a result of OIG
investigations, including joint investigations with another OIG, Federal, or State investigative element.
3
  Cost avoidance was not calculated until fiscal 2003. When OIG investigative action identifies a systemic
practice that has subsequently been stopped or modified due to some type of OIG investigative
interdiction, any clear and unmistakable savings to the Corporation are reported as cost avoidance.
4
  Investigative findings allowed the Corporation to avoid paying $122,070 in liquidated damages for
violating the Fair Labor Standards Act. The cost avoidance total for fiscal year 2003 also includes three
other investigations that resulted in cost avoidance.
5
    This figure includes the Corporation’s compensation of 20 employees for unpaid overtime.




April 1, 2004 – September 30, 2004                                                                     39
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                        ♦   All information is confidential.

                        ♦   You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
        1201 New York Avenue NW., Suite 830
                 Washington, DC 20525
